          Audit Report



 Spousal Beneficiaries Whose
Government Pension Offset Has
          Stopped




     A-09-13-23049 | May 2014
MEMORANDUM


Date:      May 27, 2014                                                       Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration had adequate controls to ensure it did not improperly
           stop Government Pension Offset for spousal beneficiaries.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Spousal Beneficiaries Whose Government Pension Offset Has
Stopped
A-09-13-23049
May 2014                                                                   Office of Audit Report Summary

Objective                                  Our Findings

To determine whether the Social            SSA needs to improve its controls to ensure it does not improperly
Security Administration (SSA) had          stop GPO for spousal beneficiaries. We estimate that SSA
adequate controls to ensure it did not     incorrectly recorded GPO stop dates for 812 spousal beneficiaries
improperly stop Government Pension         on the MBR. This included 314 beneficiaries whom SSA overpaid
Offset (GPO) for spousal beneficiaries.    about $9.1 million because it improperly stopped withholding GPO
                                           or incorrectly calculated the GPO amounts. Finally, we estimate
Background                                 that SSA will overpay the 314 spousal beneficiaries about
                                           $2 million, annually, unless it takes action to identify and correct
The GPO provision reduces monthly          these payment errors.
benefits for spouses, divorced spouses,
and surviving spouses who receive a        Generally, these errors occurred because SSA employees
pension based on their own work for a      erroneously recorded GPO stop dates on the MBR, did not properly
Federal, State, or local government that   calculate GPO because they incorrectly recorded monthly pensions
was not covered by Social Security.        as lump sum payments, or did not properly apply pension amounts
The GPO reduction is generally equal       when they calculated the GPO amount.
to two-thirds of the government
pension.                                   Our Recommendations

Under certain conditions, an exemption     We recommend that SSA:
from GPO may apply or SSA may
properly stop GPO for beneficiaries        1. Take corrective action to remove the improper GPO stop dates
who are no longer receiving their             for the 88 beneficiaries identified by our audit. In addition, if
pensions. If GPO does not apply, SSA          appropriate, establish overpayments and withhold GPO from
employees must record the reason for          34 of these beneficiaries.
the exemption on the Master
Beneficiary Record (MBR).                  2. Evaluate the results of its corrective action for the
                                              88 beneficiaries and determine whether it should review the
                                              remaining population of 823 spousal beneficiaries.

                                           3. Determine whether it should develop additional controls and
                                              procedures to ensure GPO stop dates are correct.

                                           SSA agreed with our recommendations
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................1
     Improper GPO Stop Dates .........................................................................................................3
           GPO Withholding Improperly Stopped ...............................................................................3
           GPO Amounts Improperly Calculated .................................................................................4
Conclusions ......................................................................................................................................5
Recommendations ............................................................................................................................5
Agency Comments ...........................................................................................................................5
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)
ABBREVIATIONS
GPO                 Government Pension Offset

MBR                 Master Beneficiary Record

OIG                 Office of the Inspector General

POMS                Program Operations Manual System

SSA                 Social Security Administration




Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) had adequate
controls to ensure it did not improperly stop Government Pension Offset (GPO) for spousal
beneficiaries.

BACKGROUND
GPO reduces monthly benefits for spouses, divorced spouses, and surviving spouses who receive
a pension based on their own work for a Federal, State, or local government not covered by
Social Security. The GPO reduction is generally equal to two-thirds of the government pension.
Under certain conditions, a GPO exemption may apply. For example, an individual whose last
60 months of employment was work covered by both Social Security and a government pension
plan may be exempt from GPO. 1 SSA may also properly stop withholding GPO for beneficiaries
who are no longer receiving their pension. 2 Finally, SSA employees must record on the Master
Beneficiary Record (MBR) the reason GPO does not apply. 3

When SSA determines a spousal beneficiary is subject to GPO, it documents the individual’s
pension information and calculates a GPO amount. 4 GPO applies to all government pension
payments whether the payments are made periodically, in a lump sum, or both. 5 For pensions
paid monthly, the GPO amount is generally equal to two-thirds of the pension amount. 6 For a
lump sum pension payment, the GPO amount is generally based on the beneficiary’s age at the
time of payment and their life expectancy. 7 If a beneficiary stops receiving his/her pension, SSA
employees must update the MBR with a GPO stop date.

We identified 923 spousal beneficiaries for whom, according to the MBR, SSA had previously
withheld GPO but then stopped the withholding. From this population, we selected a random
sample of 100 beneficiaries for review (see Appendix B).

RESULTS OF REVIEW
SSA needs to improve its controls to ensure it does not improperly stop GPO for spousal
beneficiaries. We also found that SSA did not always properly calculate GPO withholding



1
    SSA, POMS, GN 02608.100.A (August 29, 2013); SSA, POMS, GN 02608.107 (August 11, 2010).
2
    SSA, POMS, GN 02608.100.A (August 29, 2013).
3
    SSA, POMS, GN 02608.200.B.2 (September 23, 2013).
4
    SSA, POMS, GN 02608.200.C (September 23, 2013).
5
    SSA, POMS, GN 02608.400.A (September 23, 2013).
6
    SSA, POMS, GN 02608.100.A.2.a (August 29, 2013).
7
    SSA, POMS, GN 02608.400.D (September 23, 2013).



Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)                1
amounts for beneficiaries. Based on our random sample, we estimated that SSA incorrectly
recorded GPO stop dates for 812 spousal beneficiaries on the MBR. This included
314 beneficiaries whom SSA overpaid about $9.1 million because it improperly stopped
withholding GPO or incorrectly calculated the GPO amounts. Finally, we estimate that SSA will
overpay the 314 spousal beneficiaries about $2 million, annually, unless it takes action to
identify and correct these payment errors.

We are 90-percent confident the number of spousal beneficiaries with improper GPO stop dates
ranged from 754 to 855. We are also 90-percent confident the number of spousal beneficiaries
for whom SSA improperly stopped or calculated GPO amounts ranged from 246 to 388, and the
overpayments ranged from $6.1 to $12.2 million (see Appendix B).

Generally, these errors occurred because SSA employees incorrectly recorded GPO stop dates on
the MBR, did not properly calculate GPO amounts because they incorrectly recorded monthly
pensions as lump sum payments, or improperly applied pension amounts when they calculated
the GPO amount.

For the 100 beneficiaries in our sample, SSA improperly recorded a GPO stop date for
88 beneficiaries. Of these, SSA continued withholding GPO for 54 beneficiaries and improperly
stopped withholding GPO for 28 beneficiaries. We also found that SSA improperly calculated
GPO amounts for six beneficiaries. For the remaining 12 beneficiaries, the GPO stop date was
correct because the beneficiaries were exempt from GPO or had stopped receiving their pensions
because they returned to work. The following chart summarizes the results of our review.

                         Figure 1: Beneficiaries with a GPO Stop Date




Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)              2
Improper GPO Stop Dates
If GPO applies, it should continue while spousal beneficiaries receive their pension. 8 However,
under certain conditions, SSA may properly stop GPO. For example, beneficiaries may be
exempt from GPO if their last 60 months of work was covered by Social Security and a
government pension plan 9 or if they stopped receiving their pension. 10 When SSA employees
determine a spousal beneficiary is exempt from GPO, they must record the exemption reason on
the MBR. If a beneficiary has stopped receiving their pension, SSA must update the MBR with
a GPO stop date. However, the GPO stop date on the MBR will not automatically stop GPO
from being withheld.

For 88 of the 100 beneficiaries in our sample, we found that SSA improperly recorded a GPO
stop date on the MBR. Generally, this occurred because SSA employees incorrectly recorded a
GPO stop date when they expected a beneficiary to receive a future pension increase because of
a cost-of-living increase. None of the improper GPO stop dates occurred because of an
automated action by SSA’s system.

For 54 of these beneficiaries, SSA continued withholding GPO. Although SSA continued
withholding GPO for these beneficiaries, there is a risk that SSA may stop withholding GPO
because of the erroneous stop dates.

For example, a surviving spouse was receiving a State pension. SSA correctly reduced her
spousal benefits for GPO beginning July 2009 but incorrectly recorded a GPO stop date of
January 2010 on the MBR because it expected her pension would increase for a cost-of-living
adjustment. SSA continued withholding the GPO amount from her spousal benefits; however,
SSA employees could improperly take action to stop withholding GPO because of the erroneous
GPO stop date.

GPO Withholding Improperly Stopped
For 28 of the 100 beneficiaries in our sample, SSA improperly stopped withholding GPO. As a
result, SSA overpaid these 28 beneficiaries $943,196. We found no evidence the
28 beneficiaries had stopped receiving their pension or that a GPO exemption applied. SSA had
stopped withholding GPO from these beneficiaries for an average of 5.2 years. 11 Generally, SSA
employees incorrectly recorded GPO stop dates because the beneficiaries expected to receive a
future pension increase. In addition, we found that SSA employees incorrectly recorded pension
information received from pension-paying agencies.



8
    SSA, POMS, GN 02608.100.A (August 29, 2013).
9
    SSA, POMS, GN 02608.107.A (August 11, 2010).
10
     SSA, POMS, GN 02608.100.A (September 23, 2013).
11
     The mean was 5.2 years. The median was 5.2 years.



Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)                  3
For example, beginning in January 1998, SSA withheld GPO from a spousal beneficiary who
was entitled to a $1,409 monthly pension from the State of California. In March 2011, she
became entitled to surviving spouse’s benefits, and SSA requested her current pension
information. The beneficiary confirmed receipt of her $1,409 pension and provided SSA a letter
from the pension agency showing payments through March 2011. The SSA employee
incorrectly determined the beneficiary was no longer receiving her pension and stopped
withholding GPO. The pension letter stated a benefit end date of “lifetime.” As a result, SSA
overpaid her $32,909 from March 2011 through January 2014.

GPO Amounts Improperly Calculated
For 6 of the 100 beneficiaries in our sample, SSA improperly calculated the GPO amount. As a
result, SSA overpaid these beneficiaries $47,902. When applying GPO, SSA employees must
first determine whether a pension is a lump sum, or monthly payment to calculate the GPO
amount. However, SSA employees did not always determine the correct GPO amount.
Specifically, we found the following.

Incorrect GPO Calculations – SSA overpaid five beneficiaries because the pension amounts it
used to determine the GPO amount were incorrect. For example, a surviving divorced spouse
received two lump sum payments in addition to a monthly pension. SSA miscalculated the GPO
amount because it improperly prorated one of the lump sum payments. As a result, SSA
overpaid her $6,394 from March 2012 through January 2014.

Incorrect Use of Lump sum Pension Amounts – SSA’s policy states that GPO applies to all
pension payments not covered by Social Security, regardless of whether the pension is paid
periodically, in a lump sum, or both. When the entire pension is paid in a lump sum, the amount
may represent a specified period of time or a lifetime. According to SSA policy, if the pension is
paid in a lump sum, it uses an equivalent monthly amount provided by the pension payer to
determine the GPO amount. If the pension payer does not provide a monthly amount, SSA must
prorate the lump sum payment by the number of months specified by the pension payer or over a
beneficiary’s expected lifetime. SSA considers the beneficiary’s life expectancy and age at the
time of the award to prorate the lump sum payment into a monthly GPO amount. 12

We found that SSA overpaid one beneficiary because it improperly prorated their lump sum
payments. For example, a spousal beneficiary was receiving a monthly pension of $116.
However, an SSA employee incorrectly recorded her monthly pension as a lump sum payment.
As a result, SSA prorated the $116 to a monthly pension of $0.94. The correct monthly GPO
amount should have been $77 (two-thirds of $116). As a result, SSA overpaid the beneficiary
$5,863 from January 2008 through January 2014.




12
     SSA, POMS, GN 02608.400.A (September 23, 2013).



Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)                4
CONCLUSIONS
SSA needs to improve its controls to ensure it does not improperly stop GPO for spousal
beneficiaries. We estimate that SSA incorrectly recorded GPO stop dates for 812 spousal
beneficiaries on the MBR. This included 314 beneficiaries whom SSA overpaid about
$9.1 million because it improperly stopped withholding GPO or incorrectly calculated the GPO
amounts. Finally, we estimate that SSA will overpay the 314 spousal beneficiaries about
$2 million, annually, unless it takes action to identify and correct these payment errors (see
Appendix B).

RECOMMENDATIONS
We recommend that SSA:

1. Take corrective action to remove the improper GPO stop dates for the 88 beneficiaries
   identified by our audit. In addition, if appropriate, establish overpayments and withhold
   GPO from 34 of these beneficiaries.

2. Evaluate the results of its corrective action for the 88 beneficiaries and determine whether it
   should review the remaining population of 823 spousal beneficiaries.

3. Determine whether it should develop additional controls and procedures to ensure GPO stop
   dates are correct.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)                    5
                                      APPENDICES




Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)
Appendix A – SCOPE AND METHODOLOGY
From the Social Security Administration’s (SSA) Master Beneficiary Record (MBR), we
obtained a data extract of 923 spousal beneficiaries who had a Government Pension Offset
(GPO) stop date on the MBR and no GPO exemption. SSA had previously withheld GPO but
then stopped the withholding for these beneficiaries. From this population, we selected a random
sample of 100 beneficiaries for review.

To accomplish our objective, we

   reviewed the applicable sections of the Social Security Act, the U.S. Code, the Code of
    Federal Regulations, and SSA’s Program Operations Manual System;

   interviewed appropriate SSA staff regarding systems and controls;

   obtained necessary files from the MBR and Modernized Claims System;

   reviewed SSA’s Shared Process System and Non-Disability Repository for Evidentiary
    Documents for supporting documentation; and

   determined whether GPO stop dates were correct and compared the correct GPO amounts to
    the amounts that were actually withheld.

We determined whether the computer-processed data were sufficiently reliable for our intended
use. We conducted tests to determine the completeness and accuracy of the data. These tests
allowed us to assess the reliability of the data and achieve our audit objectives.

We performed our work in Richmond, California, between May 2013 and January 2014. The
entities reviewed were the Office of Operations under the Office of the Deputy Commissioner
for Operations and the Office of Systems under the Office of the Deputy Commissioner for
Systems.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)             A-1
Appendix B – SAMPLING METHODOLOGY AND RESULTS
We obtained a data extract from the Master Beneficiary Record (MBR) of 923 spousal
beneficiaries who had a Government Pension Offset (GPO) stop date and no GPO exemption as
of January 2013. SSA had previously withheld GPO but then stopped the withholding for these
beneficiaries. From this population, we randomly selected a sample of 100 beneficiaries for
review.

For each beneficiary in our sample, we determined whether the Social Security Administration
(SSA) had properly stopped GPO by reviewing information from the MBR. We also reviewed
the pension information and the payment history to determine whether GPO withholding had
stopped. Additionally, we reviewed information to determine whether a GPO exemption applied
or whether a beneficiary had returned to work and/or stopped receiving their pension. We
compared the GPO amount on the MBR with pension information from other SSA sources, such
as the Modernized Claims System, Shared Process System, and Non-Disability Repository for
Evidentiary Documents for supporting documentation to determine whether GPO was correctly
calculated.

The following tables provide the details of our sample results and statistical projections.

                              Figure B–1: Population and Sample Size
                Description                                                       Number
                Population Size                                                    923
                Sample Size                                                        100

Improper GPO Stop Dates
Of the 100 beneficiaries in our sample, SSA improperly recorded a GPO stop date on the MBR
for 88 beneficiaries. Projecting these results to our population, we estimate that SSA improperly
recorded a GPO stop date on the MBR for 812 beneficiaries.

                               Figure B–2: Improper GPO Stop Dates
                Description                                                         Number
                Sample Results                                                         88
                Point Estimate                                                        812
                Projection – Lower Limit                                              754
                Projection – Upper Limit                                              855
               Note: All statistical projections are at the 90-percent confidence level.




Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)             B-1
GPO Withholding Improperly Stopped
Of the 100 beneficiaries in our sample, SSA overpaid $991,098 to 34 beneficiaries. This
occurred because SSA improperly stopped or calculated GPO. Projecting these results to our
population of 923 spousal beneficiaries, we estimate SSA overpaid about $9.1 million to
314 beneficiaries.

            Figure B–3: Overpayments - GPO Improperly Stopped or Calculated
          Description                                                Number          Amount
          Sample Results                                                34              $991,098
          Point Estimate                                               314            $9,147,832
          Projection – Lower Limit                                     246            $6,084,182
          Projection – Upper Limit                                     388           $12,211,482
         Note: All statistical projections are at the 90-percent confidence level.

Annual Estimate of Improper Payments
To estimate the annual amount of overpayments that would occur if SSA does not take action to
identify and correct the payments to spousal beneficiaries with improper payments, we used our
population estimates and the average overpayment amount for the 12-month period ended
November 2013 for our sampled beneficiaries. Using this methodology, we estimate that SSA
will overpay about $2 million ($6,407 x 314 = $2,011,798) in spousal benefits, annually, until it
takes corrective action.




Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)                  B-2
           Appendix C – AGENCY COMMENTS




                                           SOCIAL SECURITY

MEMORANDUM


Date:      May 7, 2014                                                                 Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Spousal Beneficiaries Whose Government
           Pension Offset Has Stopped” (A-09-13-23049) — INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)               C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SPOUSAL BENEFICIARIES WHOSE GOVERNMENT PENSION OFFSET HAS
STOPPED” (A-09-13-23049)

Recommendation 1

Take corrective action to remove the improper GPO stop dates for the 88 beneficiaries identified
by our audit. In addition, if appropriate, establish overpayments and withhold GPO from 34 of
these beneficiaries.

Comment

We agree. We will evaluate and determine whether the 88 beneficiaries are overpaid and if we
should withhold Government Pension Offset (GPO) from 34 of these beneficiaries. We expect
to complete our review by the end of fiscal year 2014.

Recommendation 2

Evaluate the results of its corrective action for the 88 beneficiaries and determine whether it
should review the remaining population of 823 spousal beneficiaries.

Comment

We agree. We will evaluate the results from recommendation 1 and determine whether we will
review the remaining population of 823 spousal beneficiaries. We expect to complete this
recommendation by the end of calendar year 2014.

Recommendation 3

Determine whether it should develop additional controls and procedures to ensure GPO stop
dates are correct.

Comment

We agree. We will review our current instructions and procedures to ensure we properly input
GPO stop dates. We will develop additional controls and procedures, if necessary.




Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)                 C-2
Appendix D – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Joseph Robleto, Audit Manager

Leticia Lew, Program Analyst

Wilfred Wong, Audit Data Specialist

Alla Resman, IT Specialist




   Spousal Beneficiaries Whose Government Pension Offset Has Stopped (A-09-13-23049)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
